                                                     NATIONAL SCIENCE FOUNDA TION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: Al1040032                                                                        Page I of I



                 We received an allegation that a universityl receiving America Recovery and Reinvestment
         Act (ARRA) funds2 from NSF for instrumentation for a multiuser facility had failed to install the
         equipment, some of which remained in the hallway in its original packaging. The university
         administration reorganized the department originally intended to host the facility during a
         realignment of the subunits. As a result the multiuser facility did not formally coalesce. However,
         the majority of the equipment was installed in a reasonable timeframe, and students from multiple
         research grqups are utilizing it. The remaining equipment is currently being installed in the new
         hpme of one of the separated subunits, which was originally intended to care for that equipment.
         There is insufficient evidence to support a case for fraud or misconduct in the administration of the
         award.

                    Accordingly, this A-case is closed.




NSF OlG Fonn 2 (11/02)
